      ADVISORY REPORT

      Costs Claimed by the
 State of Michigan, Department
      of Natural Resources,
 Under Federal Aid Grants from
   the U.S. Fish and Wildlife
 Service From October 1, 1995,
  Through September 30, 1997




FEBRUARY 2003   Report No. 2003-E-0017
                                                                           X-GR-FWS-0034-2003

                United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL
                                       Washington, D.C. 20240




                                                                                  February 5, 2003

                                 ADVISORY REPORT

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the State of Michigan, Department of
           Natural Resources, under Federal Aid Grants from the U.S. Fish and Wildlife Service
           from October 1, 1995 through September 30, 1997 (No. 2003-E-0017)


                                        Introduction
      This report presents the results of our performance of procedures to review another audit
agency’s work related to costs claimed by the State of Michigan Department of Natural
Resources (Department) under Federal Aid grants from the U.S. Fish and Wildlife Service
(FWS) for the period October 1, 1995 through September 30, 1997.

Background and Scope
        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the Federal
Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize FWS to
provide Federal assistance grants to states to enhance their sport fish and wildlife programs. The
Acts provide for FWS to reimburse the states up to 75 percent of all eligible costs incurred under
the grants. The Acts also specify that state hunting and fishing license revenues cannot be used
for any purpose other than the administration of the state’s fish and game agencies. In addition,
FWS provides grants to the states under the Clean Vessel Act and the Endangered Species Act.

        In May 2001, another audit agency prepared a draft audit report entitled “Audit of
Michigan Federal Aid Program Grants and Payments Awarded by the U.S. Fish and Wildlife
Service, Division of Federal Aid, Fiscal Years 1996 and 1997.” The scope of its audit work, as
stated in the report to the Department, was to evaluate (1) the adequacy of the Department’s
accounting system and related internal controls; (2) the accuracy and eligibility of the direct and
indirect costs claimed by the Department under the Federal Aid grant agreements with FWS; and
(3) the adequacy and reliability of the Department’s hunting and fishing license fees collection
and disbursement process. The audit also included a review of the Department’s operating
expenses and receipts to (1) determine the accuracy of the claimed expenses, and (2) verify that
the receipts were dispensed in accordance with government regulations and grant provisions. In
addition, the audit included an analysis of other issues considered to be sensitive and/or
significant to FWS. The audit work at the Department covered claims totaling approximately
$48 million on FWS grants that were open during the Department’s fiscal years ending
September 30, 1996 and 1997 (see Appendix 1). The audit agency’s agreement with FWS
expired before issuance of its draft and final reports to the State of Michigan. However, the State
was provided a preliminary draft report in April 2000.

         From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with FWS. The FWS did not renew or extend its
agreement with the other audit agency. At the time of expiration, final audit reports on several
uncompleted audits had not been issued and the audits were in various stages of the audit and
reporting processes. The other audit agency indicated in a September 18, 2001 memorandum
that its supervisors had not reviewed the working papers for the Michigan audit to ensure that
(1) sufficient, competent and relevant evidence was obtained, (2) evidential matter contained in
the working papers adequately supported the audit findings in the report, and (3) sound auditing
techniques and judgment were used throughout the audit.

       On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the audit agency including its
working papers, summaries and draft reports for these audits and (2) issue reports on the findings
that were supported by the working papers. Accordingly, our review was limited to performing
the procedures set forth in the Intra-Departmental Agreement and our conclusions presented in
the report are limited to findings substantiated by the working papers. We did not perform any
additional audit work of the grantee’s records and the limited work performed under these
procedures does not constitute an audit by the OIG in accordance with Generally Accepted
Government Auditing Standards.

         Major issues impacting Michigan’s administration of the Federal Aid program are
presented in the body of the report and other management issues, which may require corrective
action, and other observations, are presented in Appendix 2

                                    Results of Review
       The results of our review of the working papers disclosed the following:

       •   The Department used hunting and fishing license revenues of an estimated
           $3.3 million to $4.2 million to pay the wages of conservation officers for law
           enforcement work unrelated to fish and wildlife.




                                                 2
       •   The eligibility for reimbursement of costs totaling $467,087 was questioned
           representing duplicate claims ($301,806), costs incurred outside of approved grant
           periods ($100,432), costs for projects not included in grant agreements ($49,375), and
           mischarged labor hours ($15,474).

       •   The Department’s certifications of paid fishing and hunting license holders were
           overstated by an estimated 99,634 out of the reported total of 4,711,095. The number
           of license holders is one of the factors used to determine the amount of Federal Aid
           funds provided to the State for Sport Fish Restoration and Wildlife Restoration.

       •   The Department did not transfer interest earned on revenue of $210,824 to the
           Department’s Game and Fish Protection Fund.

       •   The Department did not adequately account for personal property acquired with
           Federal Aid funds.

A. Use of Hunting and Fishing License Revenues
        The Department used an estimated $3.3 million to $4.2 million in hunting and fishing
license revenues for law enforcement activities unrelated to fish and wildlife programs during
fiscal years 1996 and 1997. This range encompasses the calculation contained in the working
papers adjusted to incorporate additional information provided by the Department ($4.2 million)
and our modified calculation ($3.3 million) based on our analysis of information found in the
working papers. Use of license revenues for non-fish and wildlife activities is not in compliance
with the relevant regulation (50 C.F.R. § 80.4), which states that "[r]evenues from license fees
paid by hunters and fishermen shall not be diverted to purposes other than the administration of
the State fish and wildlife agency."

        The Department’s Law Enforcement Division (LED) enforces the laws of all divisions
within the Department and also provides assistance to other state agencies, including the
Michigan State Police. LED expenditures are funded by a number of state funding sources,
including revenues from the sale of hunting and fishing licenses. For example, in fiscal year
1996, LED expenditures were about $21 million of which approximately 72 percent were funded
with license revenues, and in fiscal year 1997 approximately 66 percent of $23 million in
expenditures was funded with license revenues.

        The Department used a formula for allocating the costs of LED to the different funding
sources. Department officials could not, however, furnish documentation to support the
percentages used to compute the allocations to the different funds. The officials indicated that
the percentages were established once a year based on a committee’s review of budgets.
Officials informed us that they no longer use this process to assign LED costs to the restricted
funds.

        Because the Department did not have sufficient documentation to support its allocation,
the working papers contained a calculation based on the number of hours that were deemed to be
fish and wildlife activity in relation to the total hours worked by the conservation officers. Next,

                                                 3
the percentage of hours charged to fish and wildlife activity was compared to the percentage of
law enforcement expenditures funded by license revenues. The difference between the two
percentages was considered the percent of license revenues estimated to be diverted. This
calculation identified $4.2 million in license revenues that were used for law enforcement
activities not related to fish and wildlife.

        The calculation was based on the assumption that almost all (“over 95 percent”) of the
license revenues allocated to the law enforcement division funded employees’ wages. Our
review of the working papers revealed that wages in fiscal years 1996 and 1997 comprised
approximately 81 and 75 percent, respectively, of total law enforcement expenditures funded
with license revenues. Based on this information, we concluded that it was appropriate to apply
the percentage unrelated to fish and wildlife activities to law enforcement wages rather than to
total law enforcement costs because the percentage was computed based on an analysis of labor
charges and labor did not represent over 95 percent of total law enforcement costs. Thus, our
new calculation resulted in $3.3 million of expenditures for labor that was spent on unrelated fish
and wildlife activities. The two calculations are presented in Appendix 3.

        Since the working papers did not contain any other specific information on how non-
wage costs (such as costs for training and equipment) should be charged to the different funding
sources, we could not determine an exact dollar value of the amount of funds used for non-fish
and wildlife activities. Lacking any other analysis of costs, we believe that the range of
$3.3 million to $4.2 million provides a reasonable estimate of the amount of license revenues
used for non-fish-and-wildlife related activities. The Department should also be assessed interest
on the amount of license revenue eventually restored to the Game and Fish Protection Fund
based on the rate of return earned by the fund.

Recommendations

       We recommend that FWS:

       1. Use the estimated range as a basis to reach agreement with the Department on the
          final amount, plus interest associated with this amount, that should be returned to the
          restricted license revenue fund for use on fish and wildlife related activities.

       2. Ensure that the Department implements corrective action to prevent the use of
          hunting and fishing license revenues for law enforcement activities unrelated to fish
          and wildlife programs.

Department Response

        In its December 12, 2002 response, the Department stated that it believed that the
estimated diversion was made up of three components: the over-appropriation of Game and Fish
Protection Funds, disputed habitat protection activities (identified as activities charged to time
codes 5XX), and general administrative expenses. The Department agreed that there was some
over-appropriation of game and fish license revenue from the Game and Fish Protection Fund for
activities in the Law Enforcement Division. It estimated the amount to be $1,725,822. The


                                                 4
Department did not agree that all of the habitat protection activities were ineligible for Game and
Fish Protection Fund support. It stated that “[t]hese activities are integral to Michigan meeting
its obligations under its U.S. Fish and Wildlife Service grants to restore, rehabilitate and improve
wildlife habitat and to manage, conserve and restore fishery resources.” It did not identify an
amount with this portion of the finding. The Department also disagreed with the portion of the
finding relating to the calculation of the ineligible general administrative expenses. It stated that
the allocation method it used was consistent, documentable, and reasonable, making it an
appropriate allocation method in accordance with OMB Circular A-87. The Department also
stated that the alternative allocation method proposed by the prior audit agency was not
reasonable given the Department’s budget system.

FWS Response

        FWS provided us with a December 13, 2002, letter to the Department concerning the
draft advisory report which stated that:

          Based on the information from our meeting and other communications,
          we understand Michigan Department of Natural Resources (MDNR) was
          acting on an assumption that the law enforcement expenses charged to
          some 5XX codes were eligible for license fees, and that law enforcement
          expenses charged to certain other 5XX codes were partially eligible. To
          the extent these expenses were not eligible, we recognize that you may
          have been given inadequate guidance and oversight in the past from the
          Service indicating otherwise. Complicating the situation was the lack of
          training of the conservation officers as to the coding of their time and the
          fact that available documentation did not establish a definitive
          determination of the eligibility of these expenses. Therefore, we have
          decided to adjust the amount of the license fee revenues that would be
          required to be repaid accordingly. . . .

          In addition, we have reviewed the information from our meeting and
          other communications concerning allocation of law enforcement general
          administrative expenses. We have concluded that repayment should be
          made to the appropriate State fish and wildlife agency fund concerning
          these expenses.

          Based on all available documentation and appropriate considerations, we
          agree that the amount to be returned for use for the administration of the
          State fish and wildlife agency will be $1.9 million due to the allocation
          methodology employed, and $556,000 concerning the general
          administrative expenses, for a total of $2,456,000. We further agree that
          this shall constitute the full amount to be repaid for the fiscal years
          ending September 30, 1996 and 1997. . . .




                                                  5
         With regard to corrective action, the letter stated that the Department should make
arrangements to return $1.9 million by December 31, 2002, and the additional $556,000 by
January 1, 2004. The Department should also review its current codes and procedures to ensure
better determination of eligibility of future expenses and should allow the FWS regional office to
review the Department’s work on this activity. The FWS agreed to postpone any audits of these
activities until the FWS provides the Department with a determination of eligibility and provides
the Department an opportunity to implement any changes, if necessary. The FWS further stated
that a final corrective action plan should be completed as soon as practicable.

       The Department responded to FWS on December 23, 2002 that it accepted the FWS
conditions.

Office of Inspector General Comments

         The agreement of the Department with the conditions of the FWS’ December 13, 2002,
letter is sufficient to consider Recommendations A.1 and A.2 resolved but not implemented. The
corrective action plan should identify the dates for completing all required actions and the names
of the responsible officials.

B. Questioned Costs
       The working papers identified costs of $467,087 which are questionable for
reimbursement representing duplicate claims for inmate labor ($301,806), out-of-period costs
($100,432), costs for projects not included in grant agreements ($49,375), and mischarged labor
hours ($15,474).

   1. Duplicate claims for inmate labor. A total of $301,806 was questioned representing the
      cost of inmate labor that was claimed twice. The Michigan Department of Corrections
      provided inmate labor at a cost of $2.50 per day per inmate plus 100 percent of the
      associated administrative costs and billed these costs to the Department of Natural
      Resources. The Department of Natural Resources charged these costs directly to the
      grants and also claimed these costs as the State’s match on the same grants. The grants
      and associated questionable costs are as follows:

                                                            Federal
                              Grant          Amount          Share
                          W-139-D-1           $216,725       $162,544
                          W-138-D-1              2,106          1,580
                          W-127-R-14            82,975         62,231
                          Total               $301,806       $226,355

   2. Out-of-period costs. The Department charged out-of-period costs without prior
      approval when it reimbursed Michigan State University (MSU) with Federal Aid grant
      funds for performing various fish research projects. MSU billed the Department up to a


                                                6
     year after incurring these costs. Due to the late billing, the Department charged these
     costs to current grants because the grants under which MSU originally carried out the
     work had expired. Office of Management and Budget (OMB) Circular A-87, Cost
     Principles for State, Local, and Indian Tribal Governments, Attachment A, Part C, states
     that to be allowable, costs must conform to any limitations or exclusions set forth in
     Federal laws and terms and conditions of the Federal award. The Federal Aid agreements
     identify specific grant periods. Therefore, $100,432 was questioned as follows:

             Grant          Project         Document         Questioned   Federal
            Number          Number           Number           Amount       Share
                             230464         W6089856           $7,687        $5,765
                             230480         W6089917           23,066        17,300
           F-53-R-13
                             230476         W6110099           22,052        16,539
                             230471         W6110208            5,494         4,120
                         Subtotal                             $58,299       $43,724

                             230480         W7045301           $8,165        $6,124
                             230480         W7041370           16,423        12,317
           F-53-R-14
                             230464         W7052656            8,196         6,147
                             230489         W7086959            9,349         7,012
                         Subtotal                             $42,133       $31,600
                                    Total                    $100,432       $75,324

  3. Costs for projects not included in the grant agreement. Costs of $49,375 were
     questioned representing the costs of activities that were not provided for in the grant
     agreements. The Department charged costs to projects that did not correspond with the
     approved projects listed in the agreements for grants F-53-R-13 and F-53-R-14.
     According to OMB Circular A-87 Attachment A, Part C, costs must conform to any
     limitations or exclusions set forth in Federal laws and terms and conditions of the Federal
     award. Questioned costs of projects not included in the grant agreement are as follows:

 Grant     Project     Document                                           Questioned Federal
Number     Number       Number                      Vendor                 Amount     Share
F53-R-13   230481      W6074927       Regents of University of Michigan     $ 2,427     $ 1,820
           230475      W6089909       Michigan State University              41,528      31,146
                                       Subtotal                             $43,955     $32,966

F54-R-14   230481      W7045265       Regents of University of Michigan     $ 5,420     $ 4,065

                                        Total                               $49,375     $37,031


                                                7
   4.    Mischarged labor hours. Costs of $15,474 were questioned representing the cost of
        labor for ineligible activities charged to hunter education grants. The mischarges
        represented the estimated cost of time charged to activity 410 associated with “Area
        Controls and Search/Rescue of Lost Hunters”. These activities are ineligible activities
        under the hunter education grant. According to OMB Circular A-87(C)(3)(a), allocable
        costs are those that can be charged or assigned to a particular cost objective in accordance
        with the relative benefits received.

                                                         Questioned        Federal
                  Grant          Hours        Rate         Costs            Share
                W-120-S-27        430.5       $22.50          $9,686          $7,265
                W-120-S-28        252.0       $22.97           5,788           4,341
                        Total                                 $15,474         $11,606

Recommendations

        We recommend that the FWS:

        1. Resolve the $467,087 of questioned costs.

        2. Ensure that the Department institutes controls to ensure that costs are charged to the
           correct grant periods, prior FWS approval is sought before charging out-of-period
           costs to grants, costs are claimed only for projects included in the grant agreement,
           and training is provided on eligible and ineligible charges to the hunter education
           grants.

Department Response

        The Department agreed with the questioned costs, stating that it will adjust future Federal
Aid billings in order to repay the Federal share. It also stated that appropriate internal controls
had been instituted to prevent a further occurrence of these types of questioned costs.       On
December 30, 2002, the Department submitted four Financial Status Reports, SF-269s, to
indicate how the questioned costs were repaid.

Office of Inspector General’s Comments

       We forwarded the documents provided by the Department to the FWS for its
determination of the adequacy of the Department’s proposed resolution. The FWS should
review the documentation and determine whether the questioned costs have been properly
repaid. In addition, the FWS should obtain a description of the Department’s new internal
controls that have been instituted, including training on identification of eligible and ineligible
charges to the hunter education grants, to prevent a further occurrence of these types of
questioned costs, and determine if they seem adequate.



                                                  8
C. License Certification
        States are required by regulation (50 C.F.R. § 80.10) to certify the accuracy of the
reported number of paid hunting and fishing licenses each year. The number of licenses is one of
the factors used by the FWS to determine the Federal Aid apportionment for Sport Fish
Restoration and Wildlife Restoration. The working papers demonstrated that the fishing license
holder certifications for fiscal years 1996 and 1997 and the hunting license holder certification
for 1997 were overstated. These certifications included duplicate license holders and licenses
which were issued free of charge. “… [A]n individual shall not be counted more than once as a
hunting or fishing license holder” (50 C.F.R. § 80.10(c)(5)). “Licenses which do not return net
revenue to the State shall not be included [in determining eligible licenses]” (50 C.F.R. §
80.10(c)(2)). We estimated duplicate license holders and licenses issued free of charge as
follows:

                              Year         Fishing           Hunting             Total
                              1996          81,527 (a)                0          81,527
                              1997            1,276 (b)          16,831(c)       18,107
                         Total               82,803              16,831          99,634

        (a) The overstated licenses were calculated by deducting from the individual fishing
license holder certification of 1,464,027 the 1,382,500 individual fishing license holders
developed by using an electronic query1 of the Retail Sales System (RSS) database for License
Year (LY) 1995 (ending March 31,1996) (1,370,184), plus the Charter Boat Daily licenses
included in the certification (12,316). The Charter Boat Daily licenses were added to the query
results because they are still sold via a paper system and are not entered into the RSS.

        (b) The individual fishing license holders certification for fiscal year 1997 is overstated
by 1,276 due to the inclusion of individual Senior Fish Spouse fishing licenses that were issued
free of charge. The overstated licenses were calculated by deducting from the 1,348,107
individual fishing license holder certification the 1,346,831 individual fishing license holders
developed by an electronic query of the RSS database for LY 1996 that excluded the free Senior
Fish Spouse licenses.

        (c) The individual hunting license holders certification for fiscal year 1997 is overstated
by 16,831 due to the inclusion of duplicate hunting license holders. The overstated licenses were
calculated by deducting from the individual hunting license holder certification of 964,531 the
947,700 individual hunting license holders developed using an electronic query of the RSS
database for LY 1996 (ending March 31, 1997) and excluding subordinate license types (those
which are not supposed to be purchased without already having a primary license type) and daily
and annual waterfowl area use permits (the area use permits are not a license to hunt).




1
  The electronic query is designed to include individual customers only once regardless of how many licenses an
individual may have purchased.

                                                         9
        In our exit conference on September 18, 2002, the Department agreed with the finding
and stated that its license certification procedures had been changed in 1998.

Recommendation

       We recommend that the FWS ensure that the Department’s new procedures prevent
duplicate and free licenses from being included in the certification count.

Department Response

        The Department agreed with the finding and stated that it had corrected the overstatement
of fishing and hunting licenses.

Office of Inspector General Comments

      In responding to this final report, FWS should state whether it concurs with and has
implemented the recommendation.

D. Revenue From Land Acquired With State License Revenues
        The Department received revenue from the sale of gas and oil produced from property
owned by the State that was initially deposited in the Michigan Natural Resources Trust Fund
(MNRTF). At year-end, this revenue was to be transferred to the appropriate fund based on the
acquisition source of the parcel of land from which the gas and oil was extracted. The working
papers disclosed that the Department did transfer to the Game and Fish Protection Fund most of
the gas and oil revenue that was generated on land acquired with State license revenues. In
reconciling the fiscal year 1997 annual production report to the individual monthly journal
vouchers, a discrepancy of $210,824 in revenue was identified, which represented oil and gas
revenue from land acquired with funding from the Game and Fish Protection Fund. When
advised of this discrepancy, the Department corrected it. Both the MNRTF and the Game and
Fish Protection Fund are interest-earning funds. Consequently, the restoration of license revenue
to the Game and Fish Protection Fund should include the interest earned while the funds were in
the MNRTF.

       In its briefing to OIG dated February 27, 2001, the Department provided documents to
show that the transfer had been made from the MNRTF to the Game and Fish Protection Fund on
May 23, 2000. In our exit conference with the Department on September 18, 2002, it provided a
document to show that the interest earned by the revenue while in the MNRTF was transferred to
the Game and Fish Protection Fund on June 13, 2002.

Recommendation

      We recommend that the FWS ensure that the amounts transferred, for which the
Department provided documentation, were made as indicated.




                                               10
Department Response

       The Department agreed with the finding and stated that it had corrected the issue.

Office of Inspector General Comments

      In responding to the final report, the FWS should indicate whether it agrees with and has
implemented the recommendation.

E. Property Management
       The working papers disclosed that the Department needs to improve its controls over
personal property. The working papers showed that:

       •   Some assets did not have identification tags attached.
       •   Inventory records did not reconcile with the equipment observed at the site.
       •   Supporting documentation for some transferred property was missing.
       •   Loans of assets to organizations outside the Department, as well as to other sites
           within the same division, were not supported by required documentation.
       •   Identification tag numbers for some items did not correspond with the tag numbers in
           the fixed asset system.
       •   Information for items that were missing, returned as surplus, or transferred was not
           entered into the fixed asset system.

         The Department agreed with this finding at our exit conference on September 18, 2002.
It stated that it had developed Equipment Inventory and Building Inventory Asset Management
Systems and placed them in operation in June 1999.

Recommendation

       We recommend that the FWS determine if the new systems contain controls to
adequately account for personal property acquired with Federal Aid grant funds.

Department and FWS Responses

       The Department agreed with the finding and stated that it had corrected the issue.

Office of Inspector General Comments

      In responding to the final report, FWS should state whether it agrees with and has
implemented the recommendation.

       In accordance with the Departmental Manual (360 DM 5.3), please provide us you’re
your written comments by May 6, 2003 regarding the status of the corrective action plan.



                                               11
        This advisory report is intended solely for the use of grant officials of the U.S. Fish and
Wildlife Service, and is not intended for, and should not be used by anyone who is not cognizant
of the procedures that were applied to the review of another audit agency’s work.

       If you have any questions regarding this report, please contact Mr. Joseph Ansnick,
Director, External Audits, at (703) 487-8011.


cc: Regional Director, Region 3
      U.S. Fish and Wildlife Service




                                                12
                                                                                       APPENDIX 1

                  FINANCIAL SUMMARY OF REVIEW COVERAGE
                  OCTOBER 1, 1995, THROUGH SEPTEMBER 30, 1997

                                              Grant                                   Federal Share of
Grant Number             Title               Amount         Year    Costs Claimed     Questioned Costs

                                        Sport Fish Restoration
FW-4-C-7       D.J. Administration          $     61,431
                                                            FY96       $     57,868
                                                            Total      $     57,868
FW-4-C-8       D.J. Administration                61,373
                                                            FY97       $     49,754
                                                            Total      $     49,754
F-35-R-21      Inland Fisheries                 1,216,012
                     Research                               FY96       $    361,865
                                                            Total      $    361,865
F-35-R-22      Inland Fisheries                 1,403,820
                     Research                               FY96       $    363,050
                                                            FY97            364,760
                                                            Total      $    727,810
F-35-R-23      Inland Fisheries                 1,383,186
                     Research                               FY97       $    293,719
                                                            Total      $    293,719
F-53-R-12      Great Lakes Fisheries            2,956,629
                          Research                          FY96        $ 960,361
                                                            Total       $ 960,361
F-53-R-13      Great Lakes Fisheries            3,035,050
                          Research                          FY96        $ 1,641,946            $ 76,690
                                                            FY97          1,139,042
                                                            Total       $ 2,780,988
F-53-R-14      Great Lakes Fisheries            3,351,469
                          Research                          FY97        $ 1,457,421            $ 35,665
                                                            Total       $ 1,457,421
F-58-B-33      Fair Haven Boat Access            165,000
                                                            FY96        $     5,928
                                                            Total       $     5,928
F-58-B-37      Lake St. Helen Boat               305,000
                           Access                           FY96        $  49,414
                                                            FY97           76,610
                                                            Total       $ 126,024
F-58-B-38      Selfridge Boat Access             544,218
                                                            FY96        $ 339,363
                                                            FY97          221,314
                                                            Total       $ 560,677
F-58-B-39      Grand Haven Boat                  324,000
                        Launch                              FY97        $    15,225
                                                            Total       $    15,225


                                                    13
                                                                                  APPENDIX 1

                  FINANCIAL SUMMARY OF REVIEW COVERAGE
                  OCTOBER 1, 1995, THROUGH SEPTEMBER 30, 1997

                                           Grant                                 Federal Share of
Grant Number             Title            Amount       Year    Costs Claimed     Questioned Costs
F-62-D-9       Fish Production and         6,801,000
                         Stocking                      FY96        $ 6,801,000
                                                       Total       $ 6,801,000
F-62-D-10      Fish Production and         7,161,000
                         Stocking                      FY97        $ 6,475,938
                                                       Total       $ 6,475,938

F-72-D-5       Manistee River                 50,020
                 Restoration                           FY96        $   50,010
                                                       Total       $   50,010
F-75-R-2       Drug Registration              20,014
                                                       FY96        $   20,014
                                                       Total       $   20,014
F-75-R-3       Drug Registration              20,014
                                                       FY97        $   20,004
                                                       Total       $   20,004
F-76-B-1       Rogers City Mooring         3,499,448
                 Facility Expansion                    FY96        $ 474,649
                                                       FY97           91,520
                                                       Total       $ 566,169


                                                       FY96       $11,125,468             $ 76,690
                                                       FY97        10,205,307               35,665

   Total Sport Fish Restoration          $32,358,684              $21,330,775            $112,355



                                      Wildlife Restoration

FW-4-C-7       PR Administration          $   70,931
                                                       FY96        $   64,549
                                                       Total       $   64,549
FW-4-C-8       PR Administration              61,373
                                                       FY97        $   48,790
                                                       Total       $   48,790
W-120-S-27     Hunter Education            1,028,056
                                                       FY96        $ 934,476             $ 7,265
                                                       Total       $ 934,476
W-120-S-28     Hunter Education            1,202,952
                                                       FY97        $ 1,175,781           $ 4,341
                                                       Total       $ 1,175,781



                                               14
                                                                                   APPENDIX 1

                   FINANCIAL SUMMARY OF REVIEW COVERAGE
                   OCTOBER 1, 1995, THROUGH SEPTEMBER 30, 1997

                                            Grant                                 Federal Share of
Grant Number              Title            Amount       Year    Costs Claimed     Questioned Costs
W-125-D-15     Game Area Maintenance         525,000
                                                        FY96        $ 400,510
                                                        FY97           39,611
                                                        Total       $ 440,121
W-127-R-14     Statewide Research           3,050,193
                                                        FY96        $ 2,911,403           $ 62,231
                                                        Total       $ 2,911,403
W-127-R-15     Statewide Research           2,614,645
                                                        FY97        $ 2,532,011
                                                        Total       $ 2,532,011
W-134-L-1      Statewide Land               2,668,534
                   Acquisition                          FY96        $ 561,351
                                                        FY97          159,546
                                                        Total       $ 720,897
W-136-S-1      Sharonville Shooting          500,350
                        Range                           FY96        $ 493,557
                                                        Total       $ 493,557
W-137-S-1      Rose Lake Shooting            500,200
                       Range                            FY96        $ 263,726
                                                        FY97          229,915
                                                        Total       $ 493,641
W-138-D-1      Statewide Wildlife            291,183
                    Development                         FY96        $   83,422            $ 1,580
                                                        Total       $   83,422
W-138-D-2      Statewide Wildlife            326,183
                    Development                         FY97        $   58,726
                                                        Total       $   58,726
W-139-D-1      Statewide Wildlife           8,742,094
                    Management                          FY96        $ 7,590,990           $ 162,544
                                                        Total       $ 7,590,990
W-139-D-2      Statewide Wildlife           8,266,772
                    Management                          FY97        $ 7,774,812
                                                        Total       $ 7,774,812
W-140-D-1      Facilities, Construction,     838,900
               Renovation, and Special                  FY97        $ 478,369
               Maintenance                              Total       $ 478,369
W-140-D-2      Facilities, Construction,     281,630
               Renovation, and Special                  FY97        $   67,484
               Maintenance                              Total       $   67,484
H-1-1          Migratory Bird Harvest         90,000
               Information Program                      FY96        $   90,000
                                                        Total       $   90,000


                                                15
                                                                                       APPENDIX 1

                  FINANCIAL SUMMARY OF REVIEW COVERAGE
                  OCTOBER 1, 1995, THROUGH SEPTEMBER 30, 1997

                                                Grant                                 Federal Share of
Grant Number             Title                 Amount      Year    Costs Claimed      Questioned Costs
H-1-1 or       Migratory Bird Harvest      Fee per name
98210-6-0508   Information Program                         FY96            $ 23,280
98210-7-M066                                               FY97              30,868
                                                           Total           $ 54,148


                                                            FY96      $13,417,264             $ 233,620
                                                            FY97       12,595,913                 4,341

    Total Wildlife Restoration              $31,058,996               $26,013,177             $ 237,961




                                        Endangered Species

E-1-25         Michigan Endangered              $345,819
               Species Program                             FY96       $      21,859
                                                           Total      $      21,859
E-1-26         Michigan Endangered               322,667
               Species Program                             FY97       $     322,667
                                                           Total      $     322,667
E-1-27         Michigan Endangered               306,207
               Species Program                             FY97       $     352,080
                                                           Total      $     352,080

                                                           FY96        $  21,859
                                                           FY97          674,747
         Total Endangered Species               $974,693               $ 696,606




                                        Clean Vessel Program

V-1-2          Clean Vessel Program        $     217,467
                                                           FY96       $     167,967
V-1-3          Clean Vessel Program              144,000
                                                           FY97        $     39,471

   Total Clean Vessel Program              $    361,467               $     207,438




                                                   16
                                                                                  APPENDIX 1

                   FINANCIAL SUMMARY OF REVIEW COVERAGE
                   OCTOBER 1, 1995, THROUGH SEPTEMBER 30, 1997

                                           Grant                                 Federal Share of
Grant Number              Title           Amount        Year    Costs Claimed    Questioned Costs


                                               Other

P-1-W-1         Wildlife, Conservation,    $   24,000
                  and Appreciation                      FY96       $    10,383
P-1-W-1         Wildlife, Conservation,        20,000
                  and Appreciation                      FY96       $    20,000
Cooperative     St. Joseph River               50,000
Agreement         Cooperative Project                   FY96       $     6,385
                                                        FY97            33,881
                                                        Total      $    40,266

                                                        FY 96       $   36,768
                                                        FY 97           33,881

              Total Other                  $   94,000               $   70,649

                                                        FY96       $24,769,326          $ 310,310
                                                        FY97        23,549,319          $ 40,006

          Summary Totals                  $64,847,840   Total      $48,318,645          $ 350,316




                                                 17
                                                                                       APPENDIX 2

                                 MANAGEMENT ISSUES

       The working papers identified several management issues that the Michigan Department
of Natural Resources and the Fish and Wildlife Service need to address and commented on the
adequacy of the State’s assent legislation. These matters are discussed below.

1. Financial Management
        The State’s accounting system and related internal controls in effect during fiscal years
1996 and 1997 were generally adequate for the accumulation and reporting of costs under
Federal Aid grants. However, improvements in implementing the system are needed to ensure
that employee time charges are accurate, that supporting documentation for in-kind contributions
and vehicle use are sufficient, and that costs are charged to the correct grant. The Department
could resolve several of the needed improvements by taking advantage of the cost recording and
reporting capabilities of the existing State accounting system.

       a. Time charges. A review of the labor system in effect as well as field interviews with
grant employees disclosed the following weaknesses:

       •   Some employees were not aware of all activities that were ineligible for Federal Aid
           funding. Based on activity codes for time charges, the majority of the employees
           interviewed were aware of some activities which were ineligible for Federal Aid
           reimbursement. However, this did not ensure that the employees understood the
           types of work that should not be charged to the Federal Aid grants. For example, in
           certain cases the Department will respond to citizen calls for the removal of nuisance
           animals (such as a bear roaming into town or rounding up geese for relocation).
           These types of activities have been charged to a variety of activity codes including
           public relations, species management, population surveys, and animal relocation. In
           the labor recording system, all of these codes, except animal relocation, are eligible
           for Federal reimbursement. However, Part 522.8.2 B.(2) of the Federal Aid Manual
           includes in its description of ineligible activities “Activities directed to the welfare of
           individual animals such as caring for injured animals or removal of nuisance
           animals.” Considering the variety of activity codes charged for these efforts, it
           appears that code descriptions are ambiguous.

       •   Employees did not always complete time and attendance forms in ink and on a daily
           basis. The Department Personnel Manual Chapter 15.02 I. requires that employees
           complete timesheets on a daily basis, in ink. Noncompliance with this procedure
           could result in inaccurate labor charges to Federal projects. Although, the review did
           not disclose any timesheets that did not reflect actual time worked, failure to comply
           with this requirement increases the risk of improper charges to the Federal Aid grants.




                                                 18
        b. In-kind contributions. The working papers disclosed that the Department does not
have adequate, written policies and procedures to ensure proper accumulation, recording and
reporting of in-kind contributions under Federal Aid grants. As such, it could not be determined
what procedures the Department followed for claiming in-kind match or what the individual
volunteer's responsibilities were in recording and certifying the efforts performed. In addition, it
was noted that volunteers who performed work for the Department did not always sign the sheets
supporting the claimed hours. In some instances there was no signature, in others only one
person signed for a group of volunteers. Sometimes the lead volunteer or a member of the
Hunter Education Instructor Group recorded the hours on an activity sheet, which was signed
either by the lead instructor or the person who prepared the sheet. This practice does not comply
with the requirements, which states in part “…To the extent feasible, volunteer services will be
supported by the same methods that the organization uses to support the allocability of regular
personnel costs” (43 C.F.R. § 12.64(b)(6)). Since the Department’s employees were required to
complete an activity sheets in support of labor costs charged to Federal Aid grants, the volunteers
should do the same.

        c. Vehicle Use Logs. The Department’s practice is to record vehicle mileage in a log.
During the review it was discovered that these logs, which were the supporting documents for
the vehicle mileage entered into the system, were not available. Supporting documents which
are otherwise reasonably considered as pertinent to program regulations must be retained for
three years from the starting date specified in paragraph (c) (43 C.F.R. §§ 12.82(a)(1)(ii), (b)(1)
and (2)). Also, 50 C.F.R. § 80.19(a) requires that supporting documents, and all other records
pertinent to a project shall be retained for a period of three years after submission of the final
expenditure report on the project. The vehicle log summaries are source documents for the
vehicle mileage and were not kept for three years as required. The Department did not have a
formal policy to retain all supporting documents for the appropriate periods and destroyed the
summaries after the data was entered into the system.

        d. Use of Grant Numbers. The working papers indicated that the “grant number” field
in the accounting system was not filled in for accounting transactions totaling $362,595 that may
have been charged to and claimed under grant W-139-D-2. A Michigan Federal Aid Coordinator
stated that charges defaulted to this grant number whenever the grant number field was not filled
in. The working papers did not include a verification that the accounting system had been
programmed to default costs with a blank grant number to grant W-139-D-2. However, we
believe that the use of a default program does not ensure that costs are charged to the correct
grant.

2. Sale of Land and Easements
       The Department funded expenditures of $216,940 for non-game related activities with
game revenue in fiscal year 1997. The Department collected revenue from the sale of land and
from easements across State-owned property. This revenue was recorded in the Department’s
general fund where it was classified as game or non-game revenue. The game revenue
represented revenue generated from property that was acquired with game and fish funds or with
Federal Aid grants. The non-game revenue was generated from property acquired with other
resources. The Department did not cross-reference the land sale or easement invoices or revenue


                                                 19
receipt documentation to the specific parcels of land that generated the revenue. This made it
difficult for the Department to determine whether the affected land was originally acquired with
license revenue or Federal Aid funds. The source of funds for the original acquisition of the
affected land must be identifiable to ensure proper accounting for the proceeds from the land
sale, including the issuance of easements.

        For lands acquired with State license fees, the proceeds from the sale or issuance of an
easement should be used for the administration of the State fish and wildlife agency (50 C.F.R.
§ 80.4). On the other hand, for lands acquired with Federal Aid funds, the grantee must notify
FWS that the property is no longer needed and request disposition instructions (43 C.F.R.
§ 12.71). The FWS should then provide for one of three alternatives identified in the regulations
for disposition (43 C.F.R. § 12.71(c)).

       In its February 27, 2001, briefing to the OIG, the Department stated that it had properly
accounted for the $216,940 in the appropriate subfund. In addition, the Department stated that it
had begun cross-referencing the invoices and revenue receipt documentation to the parcel of land
involved in each transaction.

3. Useful Life Clause
        Most of the grants reviewed for the acquisition of boat access sites contained a useful life
clause, as well as a few grants for harbors. Pre-determining a useful life may be contrary to 43
C.F.R. § 12.71(b), which states “…real property will be used for the originally authorized
purposes as long as needed for that purposes [sic].” The clause typically allows a grantee to gain
control of the Federally funded property after a pre-determined period without obtaining the
approvals required by the regulations. Since it cannot be determined in advance when a harbor
or boat access site will no longer be needed for its intended purpose, the pre-determined useful
life wording should be removed from the grants and not be used in the future. The Department
agreed with the finding and indicated that it has removed the clause from current agreements and
will not use the clause in the future.

4. Field Trials
         Field trails were not approved in accordance with State requirements. Field trial
activities include the training and competing of hunting dogs. The Department allowed field
trials at designated field trial areas throughout the State. Michigan’s Wildlife Conservation
Order Chapter 15.3 states “A person shall not conduct a field trial without first obtaining written
authorization from the director upon an application form approved by the director.” Wildlife
Conservation Order Chapter 15.1 defines director as “the director of the department of natural
resources or an authorized representative.”

        The process used to obtain approval for field trials provided for field trial clubs to submit
a form entitled “Field Dog Trial Application and Permit for Special State Owned Trial Areas” to
the field trial association where it was signed by a representative of the field trial association and
forwarded to the Department. At the Department, a Wildlife Division Permit Specialist assigned
a number to the application. If the application was prepared after the first of the year, the form

                                                  20
required the signature of the Area Manager for the State Game Area involved before the
approved permit would be returned to the field trial association representative.

         None of the 65 field trial applications reviewed were signed by the Director of the
Department of Natural Resources or an authorized representative of the Director. The
applications showed only the signature of a field trial association representative, who is not an
employee of the Department. In addition, 16 of the 65 applications were signed by the Wildlife
Division Biologists and/or supervisors approving the field trial event. However, neither the field
trial association representative, wildlife biologists, wildlife supervisors, nor the Wildlife Division
Permit Specialist had been authorized by the Director to approve field trials.

5. Assent Legislation
        The working papers indicated that State of Michigan’s legislation assenting to the
provisions of the Federal Aid in Wildlife Restoration and Federal Aid in Sport Fish Restoration
Acts is considered adequate and in compliance with Federal requirements.




                                                  21
                                                                          APPENDIX 3


         CALCULATIONS USED TO ESTIMATE THE RANGE OF
           ESTIMATION OF LICENSE REVENUES USED FOR
               NON-FISH AND WILDLIFE ACTIVITIES


         Percentage of Funds Used for Purposes Unrelated to Fish and Wildlife

  A                B                          C                          D
          Percent of Total Law       Percent of Total Law
           Enforcement Labor       Enforcement Expenditures     Percent Unrelated to
Fiscal   Hours Related to Fish &      Funded by License          Fish and Wildlife
Year            Wildlife                  Revenues               Activities (C – B)
1996                59%                         72%                    13%
1997                60%                         66%                    6%


         Estimation of Funds Based on Total Law Enforcement Expenditures

  E                  F                        G                          H
                                   Percent Unrelated to Fish    Amount Unrelated to
Fiscal    Total Law Enforcement     and Wildlife Activities      Fish and Wildlife
Year           Expenditures           (From Column D)            Activities (F x G)
1996           $21,283,547                      13%                  $2,766,861
1997           $23,463,292                      6%                    1,407,798
            Total                                                    $4,174,659


                    Estimation of Funds Based on Total Labor Costs

   I                J                         K                          L
                                   Percent Unrelated to Fish    Amount Unrelated to
Fiscal        Total Labor           and Wildlife Activities      Fish and Wildlife
Year          Expenditures            (From Column D)            Activities (J x K)
 1996         $17,199,474                       13%                   $2,235,932
 1997         $17,493,221                        6%                    1,049,593
            Total                                                     $3,285,525




                                           22
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
